                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL



                     Chemical Import Data May
                     Help EPA Identify Facilities
                     That Need to File or Update
                     Risk Management Plans

                     Report No. 14-N-0239                   April 28, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Rick Beusse
                                                     Bao Chuong
                                                     Jim Hatfield
                                                     Wendy Wierzbicki




Abbreviations

EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
RMP            Risk Management Plan


Cover photo: Truck trailer for transporting chlorine parked at a risk management
             program-regulated chlorine repackaging facility in Arizona.
             (U.S. Chemical Safety and Hazard Investigation Board photo)



 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General Hotline
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2431T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  14-N-0239
                                                                                                           April 28, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Chemical Import Data May Help EPA Identify Facilities
                                    That Need to File or Update Risk Management Plans
While conducting work as part
of an Office of Inspector
General evaluation of a              What We Found
U.S. territory’s implementation
of its delegated Clean Air Act      Import data showed large shipments of          Given the potential public harm
programs, we obtained and           anhydrous ammonia and chlorine to ports        if an accidental release were to
analyzed data on imports of         and facilities across the United States for    occur at a facility using or storing
hazardous substances to the         which facilities may need to prepare an        substances at or above threshold
United States. We obtained this     RMP or revise their RMPs. We identified        levels, the U.S. Environmental
                                    four types of situations that could indicate   Protection Agency may want to
data to help us determine
                                    facilities need to prepare or revise RMPs to   use chemical import data to help
whether facilities may have                                                        determine whether facilities have
hazardous substances onsite in      reflect large amounts of regulated
                                                                                   a sufficient RMP in place.
amounts that would require          chemicals, as follows:
them to prepare risk
management plans (RMPs)               Imports of chemicals above the reporting threshold to facilities with no RMP.
under the Clean Air Act               Return shipments of large empty containers to facilities with no RMP.
Section 112(r) risk                   Imports of chemicals in amounts greater than the amount reported in the
management program.                    facility’s RMP.
                                      Large shipments of regulated chemicals for which consignee information
The work performed and                 was not available.
disclosed in this report does not
constitute an Office of Inspector   Additional analyses and/or onsite inspections are needed to determine whether
General evaluation conducted        the facilities described above are complying with risk management program
in accordance with generally        requirements. Because of the sensitive nature of the information we developed,
accepted government auditing        we will provide the agency with our detailed analyses separately from this report.
standards issued by the
Comptroller General of the          If facilities subject to the risk management program are not preparing RMPs, they
United States.                      may not be taking adequate measures to prevent accidents or mitigate the
                                    consequences of such accidents to the public. Further, without a plan detailing
This report addresses the           the chemicals located onsite and the risks associated with those chemicals, first
following EPA theme:                responders may not have the information necessary to safely and effectively
                                    respond to a chemical accident.
  Taking action on toxics and
   chemical safety.                 We make no formal recommendations, but we encourage the agency to use the
                                    information we developed to determine whether the facilities we identified need to
                                    prepare or revise RMPs. We also encourage the agency to assess whether it
For further information,            should develop procedures for using import and export data as a method for
contact our public affairs office   identifying potential RMP non-filers.
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140428-14-N-0239.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                        THE INSPECTOR GENERAL


                                             April 28, 2014

MEMORANDUM

SUBJECT:       Chemical Import Data May Help EPA Identify Facilities That Need to
               File or Update Risk Management Plans
               Report No. 14-N-0239

FROM:          Arthur A. Elkins Jr.

TO:            Lawrence M. Stanton, Director
               Office of Emergency Management
               Office of Solid Waste and Emergency Response

This report provides you with information we obtained while conducting another Office of Inspector
General (OIG) evaluation on a U.S. territory’s implementation of U.S. Environmental Protection
Agency (EPA) authorized programs. The information in this report may help the EPA in assuring that
facilities comply with risk management program regulations designed to protect the public from
accidental airborne releases of hazardous chemicals. Specifically, this information could help identify
facilities that:

      Have not filed the required risk management plans (RMPs) with the EPA.
      May need to update their RMPs.

The work performed and disclosed in this report does not constitute an EPA OIG evaluation conducted
in accordance with generally accepted government auditing standards issued by the Comptroller General
of the United States. The information we obtained is not sufficient by itself to conclude whether these
facilities need to prepare or update RMPs. However, given the potential public harm if an accidental
release were to occur at a facility using or storing these substances at or above threshold levels, we are
providing this information to you so that the EPA can take appropriate actions to determine whether
these facilities are complying with applicable risk management program regulations.

Background

As required by Clean Air Act Section 112(r)(7), the EPA issued the risk management program rule in
1996. The rule requires stationary sources that have more than the threshold quantity of any of
140 regulated substances (77 toxic and 63 flammable) onsite in any one process to implement a risk
management program. A facility’s risk management program must include a hazard assessment, a
prevention program and an emergency response program.


14-N-0239
                                                                                                          1
All covered facilities must submit an RMP to the EPA that describes their risk management program.
Compliance with risk management program requirements helps to prevent accidents and mitigate the
harm to human health and the environment from those that do occur. A facility’s failure to follow
program requirements could lead to accidental releases of harmful chemicals and/or inadequate
responses to protect the public when such accidents occur. Between October 2008 and March 2012,
323 facilities reported 460 accidents to EPA. These accidents caused over $264 million in onsite and
offsite damages. Further, the accidents resulted in 14 worker fatalities, over 330 worker injuries, and
over 64,000 people being sheltered in place.

The two most commonly reported toxic substances subject to risk management program requirements
are anhydrous ammonia and chlorine. Both substances can cause eye, skin and respiratory tract burns.
Exposure to high concentrations of either substance can be fatal. The threshold quantities for anhydrous
ammonia and chlorine are 10,000 pounds and 2,500 pounds, respectively. The EPA’s Office of
Emergency Management, within the EPA’s Office of Solid Waste and Emergency Response, manages the
risk management program.

Scope and Methodology

While conducting work as part of an OIG evaluation of a U.S. territory’s implementation of its
EPA-authorized air programs, we obtained and analyzed data on international imports of hazardous
substances to the United States and its territories for the period July 1, 2013, to January 21, 2014. This
data was based on vessel manifests collected by U.S. Customs and Border Protection.1 We obtained this
data to help us determine whether facilities may be storing or using hazardous substances in amounts
that would require them to prepare RMPs.2 While reviewing this data, we noticed large shipments of
regulated substances, as well as empty containers for these regulated substances, to various ports and
facilities across the United States. We compared the import data to the EPA’s RMP National Database
records for the facilities or companies that received the shipments to determine whether the facilities had
filed an RMP or had reported amounts consistent with the amounts imported.

We also learned that the Department of Commerce’s Census Bureau, through the Automated Export
System, electronically collects and maintains U.S. export data. We did not review this data as it is not
readily available and exempt from public disclosure. However, this data may be useful to the EPA as
another source for identifying potential RMP non-filers.

Chemical Shipping Data May Show Facilities That Need to Prepare or Update RMPs

Import data showed large shipments of anhydrous ammonia and chlorine—as well as empty containers
for these substances—to ports and facilities in Alabama, Arizona, California, Connecticut, Florida,
Louisiana, Mississippi, New York/New Jersey area, North Carolina, Texas and Virginia. In comparing
this data to the EPA’s RMP National Database, we identified four types of situations that could indicate
facilities would need to prepare RMPs or revise their RMPs to reflect large amounts of covered
chemicals, as follows:


1
  The international import data we used came from a commercial company that obtained vessel manifests from the
U.S. Customs and Border Protection.
2
  We did not conduct audit work to verify or test the accuracy of this information.

14-N-0239
                                                                                                                 2
    1. Imports of chemicals above the reporting threshold to facilities with no RMP. Imports of
       chemicals above the reporting threshold could indicate that these facilities are storing or using
       these chemicals in amounts over the RMP threshold. We identified four facilities—in California,
       Connecticut, Florida and Texas—that received from one to 11 shipments of anhydrous ammonia
       over the approximately 6-month period. Each shipment weighed from 15,000 to more than
       56 million pounds. These facilities have not filed RMPs with the EPA, according to the RMP
       National Database.3

    2. Return shipments of large empty containers to facilities with no RMP. Return shipments of
       empty containers could indicate that these facilities are producing and/or storing chemicals for
       export in amounts over the RMP threshold. We identified two facilities—in California and North
       Carolina—that received shipments of empty chlorine containers. Based on the size of these
       empty cylinders, we estimated that these facilities may have produced and/or stored between
       4,700 and 16,200 pounds of chlorine. Neither facility has an RMP on file with the EPA. We
       identified a third facility—in Arizona—that received return shipments of empty anhydrous
       ammonia containers. Based on the size of these empty cylinders, we estimated that this facility
       may have produced and/or stored from 34,000 to more than 40,000 pounds of anhydrous
       ammonia. The facility has an RMP on file with the EPA but the RMP does not include
       anhydrous ammonia.

    3. Imports of chemicals in amounts greater than the amount reported in the facility’s RMP.
       This information could indicate that a facility is using or storing regulated chemicals in amounts
       greater than what the facility reported on its RMP. We identified one facility—in Texas—that
       imported more than 33 million pounds of anhydrous ammonia on two different dates, which is
       43.8 percent more than its RMP-listed process of 23 million pounds of anhydrous ammonia.

    4. Large shipments of regulated chemicals and empty containers for which consignee
       information was not available. The unavailability of this information4 makes it difficult to
       identify facilities that may be storing, producing and/or using chemicals in amounts over the
       RMP threshold that may not have filed RMPs or need to update their RMPs. Consignee
       information was not available for 23 shipments of anhydrous ammonia to two ports in Louisiana,
       each weighing over 700,000 to more than 87 million pounds; and one shipment of chlorine,
       weighing approximately 550,000 pounds, to a port in Alabama. We also identified 15 return
       shipments of empty anhydrous ammonia containers to the Port of New York and New Jersey.
       Based on the sizes of these containers, we estimated facilities may have produced and/or stored
       between 16,000 and more than 68,000 pounds of anhydrous ammonia.

Additional analyses and/or onsite inspections are needed to determine whether the facilities described
above are complying with risk management program requirements. Because of the sensitive nature of
the information we developed, we will provide the agency with our detailed analyses separate from this
report.


3
  The addresses of two of the four facilities appeared to be corporate addresses; as such, we searched the RMP National
Database for all facilities with these company names and did not find any facilities with the same names.
4
  Under 19 CFR 103.31(d), a consignee may request from U.S. Customs and Border Protection confidential treatment of both
its name and address on inward manifests, as well as confidential treatment of the shipper’s name and address.

14-N-0239
                                                                                                                       3
We believe this information would also be useful to the ongoing work of the Chemical Facility Safety
and Security Working Group, as it assesses methods that federal and state agencies can use to identify
chemical facilities that have not met or are otherwise out of compliance with regulatory safety and
security requirements.5

Suggestions to EPA

We encourage the EPA to:

       Determine whether the facilities we identified without RMPs are required to prepare and submit
        RMPs to the EPA.

       Determine whether the facilities with RMPs that imported substances in excess of the amounts
        reported on their RMPs should amend their RMPs to account for large quantities of regulated
        chemicals.

       Obtain consignee information from the U.S. Customs and Border Protection for large imports of
        RMP-regulated substances and empty containers to ports in Alabama, Louisiana and the
        New York/New Jersey area and determine whether these facilities are complying with RMP
        requirements.

       Assess whether the EPA should develop procedures for using manifest data from U.S. Customs
        and Border Protection and electronic export information from the Department of Commerce as a
        method for identifying potential RMP non-filers.

       Based on results of the above assessment, determine whether to share with the Chemical Facility
        Safety and Security Working Group this approach of identifying potential facilities that are not in
        compliance with regulatory safety and security requirements using manifest data and electronic
        export information.

This report is for your information. Providing this information to the agency in this form does not
preclude the OIG from looking at these issues in the future. The agency is not required to provide a
written response to this report. Should you choose to provide a response to this final report, we will post
your response on the OIG’s public website, along with our memorandum commenting on your response.
You should provide your response as an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Rick Beusse, Director, Air Evaluations, at (919) 541-5747 or beusse.rick@epa.gov.


5
 The Chemical Facility Safety and Security Working Group was established under Executive Order 13650 on
Improving Chemical Facility Safety and Security (issued on August 1, 2013), and is co-chaired by the EPA, the
Department of Homeland Security, and the Department of Labor.

14-N-0239
                                                                                                                4
                                      Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Enforcement and Compliance Assurance
Director, Office of Emergency Management, Office of Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




14-N-0239
                                                                                         5
